                                                81562                      Federal Register / Vol. 75, No. 248 / Tuesday, December 28, 2010 / Notices

                                                Nature of Decision to be Made                             • 2/01/11—Mio Ranger Station, 107                   FOR FURTHER INFORMATION CONTACT:
                                                   The Regional Forester will decide                    McKinley Road, Mio, MI, from 4–7 p.m.;                Christopher Savage, Petersburg District
                                                                                                          • 2/02/11—Causeway Bay Hotel (Will                  Ranger, P.O. Box 1328, Petersburg,
                                                whether or not to amend the Land and
                                                                                                        be Changing to Best Western), 6820                    Alaska, 99833, phone (907) 772–3871, e-
                                                Resource Management Plan for the
                                                                                                        South Cedar, Lansing, MI, from 4–8                    mail csavage@fs.fed.us, or Robert
                                                Huron-Manistee National Forests,
                                                                                                        p.m.;                                                 Dalrymple, Wrangell District Ranger,
                                                through the closure of some or all of the                 • 2/02/11—Days Inn of Manistee,
                                                Semiprimitive Nonmotorized                                                                                    P.O. Box 51, Wrangell, AK 99929, phone
                                                                                                        1462 US 31 South, Manistee, MI, from                  (907) 874–2323, e-mail
                                                Management Areas to firearm hunting                     4–7 p.m.;
                                                and snowmobile use (subject to existing                                                                       rdalrymple@fs.fed.us.
                                                                                                          • 2/03/11—Crowne Plaza, 57000 East                     Individuals who use
                                                rights); and the Primitive Area                         28th St., Grand Rapids, MI, from 4–8
                                                (Nordhouse Dunes Wilderness) to                                                                               telecommunication devices for the deaf
                                                                                                        p.m.;                                                 (TDD) may call the Federal Information
                                                firearm hunting (subject to existing                      • 2/03/11—Plainfield Township Hall,                 Relay Service (FIRS) at 1–800–877–8339
                                                rights).                                                885 Eighth Street, Baldwin, MI, from 4–               between 8 a.m. and 8 p.m., Eastern
                                                Preliminary Issues                                      7 p.m.                                                Standard Time, Monday through Friday.
                                                                                                          Dated: December 20, 2010.                           SUPPLEMENTARY INFORMATION: The
                                                   We expect issues to include effects on
                                                game species and wildlife management,                   Barry Paulson,                                        meeting is open to the public. The
                                                effects on vegetation, and changes to the               Forest Supervisor.                                    following business will be conducted:
                                                recreational experience for visitors to                 [FR Doc. 2010–32420 Filed 12–27–10; 8:45 am]          Evaluation of project proposals and
                                                the Semiprimitive Nonmotorized                          BILLING CODE 3410–11–M                                recommendation of projects for funding.
                                                Management Areas and the Primitive                                                                            Persons who wish to bring related
                                                Area (Nordhouse Dunes Wilderness), as                                                                         matters to the attention of the
                                                well as the possible effects of the project             DEPARTMENT OF AGRICULTURE                             Committee may file written statements
                                                on tourism in the counties affected.                                                                          with the Committee staff before or after
                                                                                                        Forest Service                                        the meeting. A public input session will
                                                Permits and Licenses Required                                                                                 be provided beginning at 9 a.m. on
                                                                                                        Wrangell-Petersburg Resource
                                                  The Forest Service is not required to                 Advisory Committee                                    January 8th.
                                                obtain any permits or licenses in order                                                                         Dated: December 20, 2010.
                                                to implement this proposal.                             AGENCY: Forest Service, USDA.
                                                                                                                                                              Christopher S. Savage,
                                                                                                        ACTION: Notice of meeting.
                                                Scoping Process                                                                                               District Ranger.
                                                  This Notice of Intent initiates the                   SUMMARY:   The Wrangell-Petersburg                    [FR Doc. 2010–32556 Filed 12–27–10; 8:45 am]
                                                scoping process, which guides the                       Resource Advisory Committee will meet                 BILLING CODE 3410–11–P

                                                development of the SEIS. The Forest                     in Petersburg, Alaska. The committee is
                                                Service plans to scope for information                  meeting as authorized under the Secure
                                                by contacting persons and organizations                 Rural Schools and Community Self-                     DEPARTMENT OF HEALTH AND
                                                interested or potentially affected by the               Determination Act (Pub.L 110–343) and                 HUMAN SERVICES
                                                proposed action through mailings,                       in compliance with the Federal
                                                public announcements, and personal                      Advisory Committee Act. The purpose                   Office of Inspector General
                                                contacts. Comments received on this                     of the meeting is to review project                   [Docket ID: OIG 909–N]
                                                notice will be used to identify the range               proposals and make project funding
                                                of actions, alternatives and effects to be              recommendations.                                      Privacy Act of 1974; System of
                                                considered in the SEIS.                                 DATES: The meeting will be held Friday,               Records
                                                  It is important that respondents                      January 7th from 1 p.m. to 5:30 p.m.,
                                                                                                                                                              AGENCY:    Office of Inspector General,
                                                provide their comments at such times                    and on Saturday, January 8th from 8
                                                                                                                                                              HHS.
                                                and in such manner that they are useful                 a.m. to noon.
                                                to the agency’s preparation of the SETS.                ADDRESSES: The meeting will be held at
                                                                                                                                                              ACTION:    Notice to delete three systems of
                                                Therefore, comments must be provided                    the Holy Cross House in Petersburg,                   records.
                                                prior to the close of the comment period                Alaska. Written comments should be                    SUMMARY:   The Office of Inspector
                                                and should clearly articulate the                       sent to Christopher Savage, Petersburg                General (OIG) is deleting from its
                                                respondent’s concerns and contentions.                  District Ranger, P.O. Box 1328,                       existing inventory of record systems
                                                The submission of timely and specific                   Petersburg, Alaska 99833, or Robert                   subject to the Privacy Act of 1974, (5
                                                comments can affect a respondent’s                      Dalrymple, Wrangell District Ranger,                  U.S.C. 552a), as amended.
                                                ability to participate in subsequent                    P.O. Box 50, Wrangell, AK 99929.
                                                administrative appeal or judicial review.                                                                     DATES: This proposed action will be
                                                                                                        Comments may also be sent via e-mail
                                                  Public meetings will be held to                                                                             effective without further notice on
                                                                                                        to csavage@fs.fed.us, or via facsimile to
                                                answer questions on our process and to                                                                        January 27, 2011 unless comments are
                                                                                                        907–772–5995.
                                                accept written comments. The time and                     All comments, including names and                   received which result in a contrary
                                                locations are as follows:                               addresses when provided, are placed in                determination.
                                                  • 1/31/11—Hilton Inn Express of                       the record and are available for public               ADDRESSES:   You may submit written
emcdonald on DSK2BSOYB1PROD with NOTICES




                                                Birch Run, 12150 Dixie Hwy., Birch                      inspection and copying. The public may                comments by any of the following
                                                Run, MI, from 4–8 p.m.;                                 inspect comments received at the                      methods:
                                                  • 1/31/11—Huron Shores Ranger                         Petersburg Ranger District office at 12                 1. Federal Rulemaking Portal: http://
                                                Station, 5761 North Skeel Rd., Oscoda,                  North Nordic Drive or the Wrangell                    www.regulations.gov. Follow the
                                                MI, from 4–7 p.m.;                                      Ranger District office at 525 Bennett                 instructions for submitting comments.
                                                  • 2/01/11—Hilton Garden Inn, 26000                    Street during regular office hours                      2. Mail or Delivery: Office of Inspector
                                                American Drive, Southfield, MI, from 4–                 (Monday through Friday 8 a.m.–4:30                    General, Department of Health and
                                                8 p.m.;                                                 p.m.).                                                Human Services, Attention: OIG 909–N,


                                           VerDate Mar<15>2010   22:37 Dec 27, 2010   Jkt 223001   PO 00000   Frm 00003   Fmt 4703   Sfmt 4703   E:\FR\FM\28DEN1.SGM   28DEN1
                                                                                 Federal Register / Vol. 75, No. 248 / Tuesday, December 28, 2010 / Notices                                                          81563

                                                Room 5541, Cohen Building, 330                                       PURPOSE:                                                   REASON FOR DELETION:
                                                Independence Avenue, SW.,                                              This system of records was                                 This system of records references
                                                Washington DC 20201.                                                 maintained to facilitate the comparison                    office locations that have not been valid
                                                   Instructions: We do not accept                                    of records to identify those Federal                       for over 15 years and predate the
                                                comments by facsimile (FAX)                                          employees who may also be receiving                        creation of the separate Department of
                                                transmission. All submissions received                               SSI benefits concurrently with their                       Education in 1980.
                                                must include the agency name and                                     Government salaries.
                                                                                                                                                                                3. SORN 09–90–0102
                                                docket number for this Federal Register                              REASON FOR DELETION:
                                                document. The general policy for                                                                                                SYSTEM NAME:
                                                comment submissions from members of                                    This system of records was a
                                                the public is to make these submissions                              temporary matching file in effect when                       Federal Personnel/HHS–Funded
                                                available for public viewing on http://                              the Social Security Administration                         Benefit and Loan Program Temporary
                                                www.regulations.gov after receipt.                                   (SSA) was still part of the Department,                    Matching File, HHS/OS/OIG.
                                                                                                                     and when OIG was tasked with
                                                FOR FURTHER INFORMATION CONTACT:                                     verifying that current employees were                      PURPOSE:
                                                Patrice Drew, Regulatory Officer, (202)                              not also receiving disability payments.                      This system of records was
                                                619–1368.                                                            SSA has been a separate agency since                       maintained to facilitate the comparison
                                                SUPPLEMENTARY INFORMATION:     In                                    1995 and no system or files currently                      of records to identify those Federal
                                                accordance with Privacy Act                                          exist.                                                     employees, Federal retirees, or their
                                                requirements, agencies are to publish                                                                                           survivors who also received assistance
                                                                                                                     2. SORN 09–90–0079                                         under an HHS or HHS-funded benefit or
                                                their amended systems in the Federal
                                                Register when there is a revision,                                   SYSTEM NAME:                                               loan program. These records were used
                                                change, or addition. OIG is proposing to                              Welfare Fraud Detection File, HHS/                        for reviewing eligibility and identifying
                                                delete the following three systems of                                OS/OIG.                                                    debts owed under these programs.
                                                records (SORN):                                                                                                                 REASON FOR DELETION:
                                                                                                                     PURPOSE:
                                                1. SORN 09–90–0078                                                     This system of records was                                 This system of records was a
                                                                                                                     established to facilitate the development                  temporary matching file for fraud
                                                SYSTEM NAME:                                                                                                                    detection investigation several years
                                                                                                                     of a fraud detection program for Aid to
                                                  Supplementary Security Income                                      Families with Dependent Children to                        ago. No current files or records of this
                                                (SSI)/Office of Personnel Management                                 identify individuals who receiving                         type currently exist within OIG.
                                                (OPM) Temporary Matching File, HHS/                                  welfare illegally through                                    Accordingly, OIG proposes to delete
                                                OS/OIG.                                                              misrepresentation.                                         the following systems of records:



                                                                        System No.                                                            Title                                             System Manager

                                                09–90–0078 .......................................................   SSI/POM Temporary Matching File .................          HHS/OS/OIG
                                                09–90–0079 .......................................................   Welfare Fraud Detection File ...........................   HHS/OS/OIG
                                                09–90–0102 .......................................................   Federal Personnel/HHS–Funded Benefit and                   HHS/OS/OIG
                                                                                                                       Loan Program Temporary Matching File.


                                                  Dated: December 15, 2010.                                          DEPARTMENT OF COMMERCE                                     et seq.), the Economic Development
                                                Daniel R. Levinson,                                                                                                             Administration (EDA) has received
                                                Inspector General.                                                   Economic Development Administration                        petitions for certification of eligibility to
                                                [FR Doc. 2010–32527 Filed 12–27–10; 8:45 am]                                                                                    apply for Trade Adjustment Assistance
                                                                                                                     Notice of Petitions by Firms for                           from the firms listed below.
                                                BILLING CODE 4152–01–P                                               Determination of Eligibility To Apply                      Accordingly, EDA has initiated
                                                                                                                     for Trade Adjustment Assistance                            investigations to determine whether
                                                                                                                     AGENCY:  Economic Development                              increased imports into the United States
                                                                                                                     Administration, Department of                              of articles like or directly competitive
                                                                                                                     Commerce.                                                  with those produced by each of these
                                                                                                                     ACTION: Notice and opportunity for                         firms contributed importantly to the
                                                                                                                     public comment.                                            total or partial separation of the firm’s
                                                                                                                                                                                workers, or threat thereof, and to a
                                                                                                                      Pursuant to Section 251 of the Trade                      decrease in sales or production of each
                                                                                                                     Act of 1974, as amended (19 U.S.C. 2341                    petitioning firm.
emcdonald on DSK2BSOYB1PROD with NOTICES




                                           VerDate Mar<15>2010       22:37 Dec 27, 2010      Jkt 223001     PO 00000      Frm 00004   Fmt 4703    Sfmt 4703   E:\FR\FM\28DEN1.SGM      28DEN1
